OFFICE OF INSPECTOR GENERAL


AUDIT OF USAID/ZAMBIA’S
IMPLEMENTATION OF THE
PRESIDENT’S EMERGENCY
PLAN FOR HIV/AIDS RELIEF
AUDIT REPORT NO. 7-611-05-005-P
July 27, 2005




DAKAR, SENEGAL
     Office of Inspector General



     July 27, 2005

     MEMORANDUM

     TO:                  USAID/Zambia Director, James F. Bednar

     FROM:                RIG/Dakar, Lee Jewell III /s/

     SUBJECT:             Audit of USAID/Zambia’s Implementation of the President’s Emergency
                          Plan for HIV/AIDS Relief (Report No. 7-611-05-005-P)

     This memorandum is our final report on the subject audit. In finalizing this report, we
     considered management’s comments on our draft report and included them in Appendix
     II.

     This report contains three recommendations to which you concurred in your response to
     the draft report. Based on your plans and actions in response to the audit findings,
     management decisions have been reached on all three recommendations, and the first
     two recommendations are considered closed upon issuance of this report. The third
     recommendation will remain open until the planned action is completed by the Mission.
     Please coordinate final action on the third recommendation with USAID’s Office of
     Management Planning and Innovation (M/MPI).

     I appreciate the cooperation and courtesies extended to the members of our audit team
     during this audit.




U.S. Agency for International Development
Ngor Diarama
Petit Ngor
BP 49
Dakar, Senegal
www.usaid.gov
CONTENTS
Summary of Results ......................................................................................................... 1

Background ...................................................................................................................... 2

Audit Objectives .................................................................................................................. 3

Audit Findings ................................................................................................................... 4

How has USAID/Zambia participated in the
President’s Emergency Plan for AIDS Relief activities? .................................................... 4

Did USAID/Zambia’s activities progress as expected
towards planned outputs in their agreements and contracts? ............................................ 9

     Oversight Needs
     To Be Improved.......................................................................................................... 13

     Reported Results Need to Be
     Accurate and Supported ............................................................................................ 14

Are USAID/Zambia’s HIV/AIDS activities contributing to the
overall U.S. Government’s Emergency Plan targets? ..................................................... 16

     Partners Should Develop Strategies
     For Sustainable Activities ........................................................................................... 19

Evaluation of Management Comments ........................................................................ 21

Appendix I – Scope and Methodology ......................................................................... 23

Appendix II – Management Comments ........................................................................ 25

Appendix III – Partner Consortium Listing .................................................................. 28
SUMMARY OF RESULTS
This audit, which was performed by the Regional Inspector General in Dakar, Senegal,
is part of a series of audits to be conducted by the Office of Inspector General. The
objectives of the audit were to determine (1) how USAID/Zambia participated in the
President’s Emergency Plan for AIDS Relief activities, (2) whether USAID/Zambia’s
HIV/AIDS activities progressed as expected towards planned outputs in their
agreements and contracts, and (3) whether USAID/Zambia’s HIV/AIDS activities
contributed to the overall U.S. Government’s Emergency Plan targets. (See page 3.)

While planning and implementing Emergency Plan activities, USAID/Zambia and its
partners encountered challenges that were inherent in the design of the Plan. These
included a short time frame to implement activities with initial funding, continual changes
in Plan guidance for implementation and reporting, and uncertainty as to whether
funding would be provided beyond the one-year funding cycle. (See page 4.)

We concluded that USAID/Zambia, even with the noted constraints, has a principal role
in the President’s Emergency Plan for AIDS Relief activities in Zambia for prevention
and care, as well as a major supporting role for HIV/AIDS treatment. (See pages 4 to 9.)
USAID/Zambia and its 33 partner consortiums were progressing as expected towards
meeting planned outputs in their agreements. However, the Mission did not provide
adequate oversight of all partner activities and results reported by some partner
consortiums were not accurate or adequately supported. (See pages 9 to 16.) Also,
USAID/Zambia’s HIV/AIDS activities were contributing significantly to the overall U.S.
Government’s Emergency Plan prevention and care targets for fiscal year 2004 and to a
lesser extent to the treatment targets. (See pages 16 to 20.)

This report includes three recommendations to assist USAID/Zambia in strengthening its
program. We recommend that USAID/Zambia engage the U.S. Government Emergency
Plan Team to explore options of minimizing the strain of human resources to ensure
adequate oversight of activities. (See page 14.) We are also recommending that the
Mission schedule training for partners in reporting and maintaining supporting
documentation. (See page 16.) Finally, we are recommending that USAID/Zambia
require its partners to develop strategies for the sustainability of Emergency Plan
activities. (See page 20.)

USAID/Zambia agreed with the recommendations and based on plans and actions in
response to the audit findings, management decisions have been reached on all three
recommendations. The first and second recommendations are considered closed upon
issuance of this report. The third recommendation remains open until final action is
taken by the Mission and coordinated with USAID’s Office of Management Planning and
Innovation (M/MPI). (See page 21.)

Management comments are included in their entirety (without attachments) in Appendix
II.




                                                                                         1
BACKGROUND
Congress enacted legislation to fight HIV/AIDS through the President’s
Emergency Plan for AIDS Relief (Emergency Plan). This $15 billion, 5-year program
provides $9 billion in new funding to speed up prevention, care and treatment services in
15 focus countries.1 The Plan also devotes $5 billion over 5 years to bilateral programs
in more than 100 countries and increases the U.S. pledge to the Global Fund2 by $1
billion over 5 years.

The FY 2004 budget for the Emergency Plan totals $2.4 billion. Of this amount, $63.4
million3 is being used in support of integrated prevention, care and treatment programs
in Zambia, one of the 15 focus countries. In November of 2003, Zambia had a
population of 10.5 million people, with an estimated 930,000 people HIV-infected
(840,000 adults and 90,000 children). HIV prevalence in pregnant women is 19.1
percent. The number of AIDS orphans is estimated to be between 500,000 and 750,000
children.

The President and Congress have set aggressive goals for addressing the HIV/AIDS
pandemic. The world-wide goal over five years is to provide treatment to 2 million HIV-
infected people, prevent 7 million HIV infections and provide care to 10 million people
infected and affected by HIV/AIDS, including patients and orphans. The Office of the
Global AIDS Coordinator (O/GAC) divided these overall Emergency Plan targets among
the 15 focus countries and allowed each focus country to determine its own
methodology for achieving their portion of the assigned targets throughout the 5 years.
USAID/Zambia committed to achieving the following targets by March 31, 2005:

    Total # Infections Averted:     Total # Receiving Care and          Total # Receiving
     Prevention of Mother-to-                Support                   Antiretroviral Therapy
       Child Transmission
               8,032                          301,600                          16,000

The Emergency Plan is directed by the O/GAC and implemented collaboratively by
country teams made up of staff from USAID, the Department of State, the Department of
Health and Human Services, and other U.S. Government agencies.4 Within USAID, the
Bureau for Global Health has general responsibility for USAID’s participation in the
Emergency Plan. More specifically, the Director of Global Health’s Office of HIV/AIDS
provides the technical leadership for USAID’s HIV/AIDS programs.




1
  Botswana, Cote d’Ivoire, Ethiopia, Kenya, Mozambique, Namibia, Nigeria, Rwanda, South
Africa, Tanzania, Uganda, and Zambia in Africa; Guyana and Haiti in the Caribbean; and Vietnam
in Asia.
2
  The Global Fund is a public-private partnership that raises money to fight AIDS, tuberculosis
and malaria.
3
  The FY 2004 Country Operational Plan includes $2.3 million that was later deferred to FY 2005.
4
  In Zambia, the U.S. Government agencies involved in the Emergency Plan are USAID, the
Centers for Disease Control and Prevention, Department of Defense, Department of State, and
Peace Corps.



                                                                                                2
AUDIT OBJECTIVES
This audit was conducted as part of a series of worldwide audits of USAID’s
implementation of the President’s Emergency Plan for HIV/AIDS Relief, included in the
Office of Inspector General’s fiscal year 2005 annual audit plan. The audit was
conducted to answer the following questions:

•   How has USAID/Zambia participated in the President’s Emergency Plan for AIDS
    Relief activities?

•   Did USAID/Zambia’s activities progress as expected towards planned outputs in their
    agreements and contracts?

•   Are USAID/Zambia’s HIV/AIDS activities        contributing   to   the   overall   U.S.
    Government’s Emergency Plan targets?

Appendix I contains a discussion of the scope and methodology of the audit.




                                                                                        3
AUDIT FINDINGS
How has USAID/Zambia participated in                                    the     President’s
Emergency Plan for AIDS Relief activities?
USAID/Zambia has played a principal and significant role in the President’s Emergency
Plan for AIDS Relief (Emergency Plan) despite obstacles encountered in planning and
implementing activities.   USAID created 33 partner consortiums5 that received
Emergency Plan funding, and these consortiums worked in all three areas on which the
Emergency Plan is focused: prevention, care, and treatment.

USAID/Zambia and its partner consortiums encountered numerous difficulties due to the
nature and structure of the Emergency Plan. The initial Emergency Plan funding was
intended to provide for the rapid implementation of the Emergency Plan by scaling up
existing projects. Even so, the Mission was given only two weeks to plan for this funding
and select which projects should be scaled up. The partners in turn had six months in
some instances to implement the scale-up of their programs.

Another difficulty noted was the volume of reporting requirements for the Emergency
Plan, which strained Mission and partner human resources. In addition, the guidance on
reporting requirements also changed regularly. For example, indicators originally agreed
upon with partners and documented in the Fiscal Year (FY) 2004 Country Operational
Plan were changed in June due to new guidance from the Office of the Global AIDS
Coordinator.

In addition, the Emergency Plan funding is provided only for one-year periods, which,
partners noted, made planning and implementation of activities difficult. According to
Mission and partner staff, it is difficult to plan strategically when the availability of funding
beyond the current year is uncertain.

Another factor affecting the ability of USAID/Zambia partners to implement programs in
Zambia was the lack of human capacity in the Zambian health sector. Both partners and
the Government of the Republic of Zambia (GRZ) officials stated that there are
insufficient numbers of people in the health sector. For example, one hospital had only
50 percent of its positions staffed. Although some USAID/Zambia programs focused on
training to develop human capacity, the overall lack of human capacity will continue to
be a major issue that partners face.

These factors that are beyond the control of the partners and Mission have created
challenges for both the Mission and its partners in implementing the Emergency Plan.
Even so, USAID/Zambia and its partners have played a crucial role in the
implementation of the Emergency Plan in all three areas: prevention, care, and
treatment.



5
  A partner consortium is defined as a cooperative arrangement among groups or institutions.
Throughout the report, we will use the term “partner consortium” when referring to the group and
“partner” when referring to a component of the consortium.



                                                                                                   4
Prevention

The Office of the Global AIDS Coordinator published guidance dividing the broad
category of prevention into five sub-categories: 1) Prevention of Mother-to-Child
Transmission (PMTCT), 2) Abstinence/Be Faithful, 3) Medical Transmission/Blood
Safety, 4) Medical Transmission/Injection Safety, and 5) Other Prevention Activities.
USAID/Zambia is participating by funding partner consortium activities in all of the sub-
categories except Medical Transmission/Blood Safety.

PMTCT – PMTCT services are offered at 84 GRZ health facilities; the U.S. Government
(USG) supports all 84 PMTCT sites.

USAID/Zambia, specifically, worked on integrating a PMTCT database into the national
voluntary counseling and testing database through its partner, Rational Pharmaceutical
Management Plus. The Elizabeth Glaser Pediatric AIDS Foundation, in conjunction with
the University of Alabama and the Center for Infectious Disease Research in Zambia
(CIDRZ), provided support of the delivery of PMTCT services at 26 public sector clinics
and the University Teaching Hospital in Lusaka. They have also established PMTCT
services in three rural districts by providing training, equipping, monitoring, and setting
up services.

The Academy for Educational Development is providing technical assistance to PMTCT
sites in clinical training and monitoring and evaluating technical assistance. Finally,
JHPIEGO is training nurses and midwives in PMTCT and infant feeding.

Abstinence/Be Faithful – U.S. Government (USG) activities support the promotion of
sexual abstinence among youth and unmarried people, an objective of the GRZ’s
National HIV/AIDS Intervention Strategy. The main interventions of the strategy include:

•   Developing information packages on the importance of sexual abstinence.
•   Disseminating the information in a well-targeted manner through faith-based
    organizations and community strategic partners.
•   Integrating HIV/AIDS education in all institutions of learning.

USAID/Zambia is working with partner consortiums in this area. The Zambia
Agribusiness Technical Assistance Centre, the Cooperative League of the USA, and
CARE International are involved in a project to reach small-scale farmers with HIV/AIDS
prevention messages focusing on being faithful and reducing partners.

The Policy Project is working to increase awareness of prevention activities at two large
companies with extensive reach: Dunavant Cotton and Konkola Copper Mines. The
program also trained people to provide HIV/AIDS programs that promote abstinence and
being faithful.

Safe Injections – The USG has assisted in the development of hospital accreditation
standards, which include procedures for the control of hazardous materials and wastes
and is working to support education in injection safety. USAID/Zambia funded JHPIEGO
to develop national infection-prevention guidelines and training materials to supplement
the guidelines; the organization trained health care workers as well. In addition,
Chemonics International with JHPIEGO has trained individuals in injection safety.




                                                                                         5
Other Prevention Activities – The GRZ Ministry of Health’s HIV/AIDS prevention
strategy is based on the recognition that a significant portion of people between the ages
of 15 and 44 are engaged in high-risk behaviors and gives high priority to increasing the
availability of condoms and improving the timeliness and effectiveness of sexually
transmitted infection diagnosis and treatment. The USG supports the GRZ prevention
strategy by funding activities that promote healthy practices, diagnosis and treatment of
sexually transmitted infections, HIV testing and correct and consistent use of condoms
for individuals in high-risk groups.

USAID/Zambia is involved in this area through various partner consortiums. AIDSMark
is working towards increasing condom social marketing efforts in provinces where
prevalence rates are higher than national averages and continue to climb. They are
working with Family Health International in the Corridors of Hope sites with commercial
sex workers and their clients. They are also working to establish accessible condom
outlets in bars, hotels, and truck parks. The International HIV/AIDS Alliance is also
working to mobilize communities to increase awareness of prevention through programs
not focused on abstinence and/or being faithful.

In addition to the consortiums of USAID mentioned above, as of September 2004
additional consortiums were just starting implementation in the prevention area:
Reaching HIV/AIDS Affected People with Integrated Development and Support,
International Executive Service Corps, Forum for African Women Educationalist in
Zambia, and Health Services and Systems Program.

Care

The broad category of care is broken into (1) Voluntary Counseling and Testing (VCT),
(2) Palliative Care, and (3) Orphans and Vulnerable Children (OVC). USAID/Zambia is
participating in all three areas.

Counseling and Testing – According to the 2003 Zambia Sexual Behavior Survey, only
9 percent of men and women knew their HIV status. The challenge lies not only in
making testing services accessible for all Zambians, but also in overcoming barriers
caused by the stigma of HIV/AIDS. USAID/Zambia is supporting increasing the access
to and quality of counseling and testing services nationwide through counseling and
testing clinics supported by private and faith-based organizations. The Mission is also
working to expand the role of testing sites and to strengthen links from counseling and
testing to other health services and vice versa. Other programs are working to break
down the stigma associated with HIV/AIDS.

The International HIV/AIDS Alliance is working to mobilize communities to increase the
demand for VCT and is also trying to increase the access and quality of VCT services
through training counselors, setting up referral networks, and establishing post-test
clubs. In addition, the Alliance is working with district governments and local non-
governmental organizations to create demand for VCT.

AIDSMark is intensifying marketing of the private sector stand-alone VCT services in
Lusaka and opening a second clinic in Kitwe. The Family Health International -
Corridors of Hope sites have provided counseling and testing services to their target
groups including commercial sex workers. The Policy Project has worked with
companies to provide counseling and testing services for employees.



                                                                                        6
Photo taken at Konkola Copper Mines showing two employees with a sign encouraging
people to talk about HIV as a way to address the stigma associated with HIV/AIDS. (Photo
taken on February 2, 2005 in Chingola, Zambia).

One problem noted during FY 2004 was that several activities referred people to
government centers for counseling and testing services. However, partners noted that
at the government counseling and testing outlets, test kits were frequently out of stock,
and some people did not return for testing. This issue is being addressed in FY 2005 as
the USG will be procuring test kits to distribute nationally; therefore, we are not making a
recommendation.

Palliative Care – Palliative care focuses on improving the quality of life of patients and
their families who are facing problems associated with life-threatening illness.
Approximately 900,000 people are living with HIV/AIDS in Zambia. As increasing
numbers of persons are tested and learn their infection status, the demand for a
continuum of care increases. According to the USG Country Operational Plan FY 2004,
palliative care for people living with HIV/AIDS is the least well-developed component of
Zambia’s HIV/AIDS program due to the lack of national standards for home-based care
that would assure a minimum set of treatments. However, through its consortium
partners, USAID is making a difference in this area.

Family Health International is working to expand its technical assistance and training for
health care workers that provide psychosocial support for children infected with HIV and
their parents/guardians.

The Policy Project is working to provide technical assistance to two large companies
with extensive reach: Dunavant Cotton and Konkola Copper Mines. The Project is
working with the companies to develop policies, plans, and implementation of effective



                                                                                          7
home-based care programs, and is training community-based caregivers, organizers,
and providers.     The Zambia Interfaith Networking Group on HIV/AIDS project also
worked in the area of providing palliative care and training.

Catholic Relief Services’ Success project is involved in providing support to home-based
care programs for people living with HIV/AIDS (PLWHAs). Activities include home visits,
referral for medical care, and psychosocial support. They provide food supplementation
as well. They also provide subgrants and capacity-building to faith-based organizations
to do home-based and hospice care.

Support for Orphans and Vulnerable Children (OVC) – The Central Statistics Office
estimated in 2004 that there are 750,000 AIDS orphans under 15 years of age in
Zambia. Projections indicate that by 2010, AIDS orphans will significantly increase to
over 930,000. The GRZ’s Ministry of Youth, Sport and Child Development is taking the
lead in coordinating OVC activities within the country. The USG is working to increase
its current OVC reach and provide an improved package of support and care services.

USAID partner consortium Family Health International/IMPACT has worked to provide
OVC care and support through community-based interventions including psychosocial
programs to provide emotional and spiritual support, help with overcoming grief,
educational assistance, and health care. Catholic Relief Services has a program in this
area as well, which provides technical assistance to OVC and vulnerable households to
improve care and support for people living with or affected by HIV/AIDS. They are
providing care and support for OVCs nationwide through faith-based organizations and
community organizations in addition to other activities such as monitoring the quality of,
as well as establishing standards for, care and support.

In addition to the above consortiums of USAID/Zambia, as of September 2004 additional
consortiums were just starting implementation in the care area: Reaching HIV/AIDS
Affected People with Integrated Development and Support; Forum for African Women
Educationalist in Zambia; John Snow, Inc.; SHARE; and Zambia Prevention, Care, and
Treatment Project.

Treatment

USAID is playing a major supporting role in administering the USG’s treatment programs
in Zambia. Treatment reporting categories were divided into (1) Antiretroviral Therapy
(ART) (non-PMTCT plus) and (2) Laboratory Support.

Antiretroviral Therapy (non-PMTCT plus) – Until recently, antiretrovirals (ARVs) were
mainly available in the private sector for a limited number of people due to their high
cost. GRZ is in the process of developing a policy which would eliminate the current $9
(40,000 kwacha) monthly cost of the drugs. Along with its partners, the USG has
assisted Zambia to develop the necessary capacity to drastically scale up ART services
by developing national policies, plans and guidelines.

USAID’s partner, Rational Pharmaceutical Management Plus, is expanding its technical
assistance in building the capacity of pharmacy and laboratory personnel and services to
support ART services in nine provincial hospitals.




                                                                                        8
Additionally, the Policy Project is providing technical assistance and training—including
developing policies, plans, and workplace prevention—to two large companies. They
are training health care providers and providing peer educators in the workplace and
community educators on ART and ARV availability.

Finally, the Partnership for Health Reform Plus is providing technical assistance to
strengthen priority management systems in the nine provincial hospitals providing ART
services.

In addition to the above consortiums of USAID, as of September 2004 additional
consortiums were just starting implementation in the treatment area: Health Services
and Systems Program; Education Quality Improvement Program; John Snow, Inc.;
SHARE; and Zambia Prevention, Care and Treatment Project.

Other

Strategic Information – The USG, through USAID/Zambia, is working closely with the
GRZ to improve data collection tools, information management, and information usage
and exchange related to HIV/AIDS.

The MEASURE project will conduct surveys to collect baseline information regarding the
health facilities in the country. The project will also combine the Sexual Behavior Survey
and AIDS Indicator Survey to provide national-level representative results for the 15-49
age group.        Family Health International/IMPACT trained individuals in strategic
information as well.


Did USAID/Zambia’s activities progress as expected towards
planned outputs in their agreements and contracts?

USAID/Zambia’s activities did progress as expected towards planned outputs contained
in the agreements and contracts. We were able to verify progress through site visits to
projects from 10 partner consortiums and by comparing planned outputs to actual
reported results. Partners are working collaboratively on all aspects of the Emergency
Plan, each partner contributing its strengths to the program. However, the Mission is not
properly monitoring and providing oversight to partner consortium activities. In addition,
although partners reported making progress towards planned outputs, we found that the
reported results for some partner consortiums were not accurate or adequately
supported.

At the time of our audit fieldwork, those partners had until March 31, 2005 to achieve
planned outputs. The following are some examples of how the Mission’s activities were
progressing towards the planned outputs.

Prevention

USAID/Zambia and its partner consortiums have made progress towards meeting their
planned outputs in the area of prevention. The Mission has 11 partner consortiums that
are working in the various areas of prevention. The following discussion provides more
details on the results achieved by selected partners implementing prevention activities.



                                                                                        9
PMTCT – Four USAID/Zambia partner consortiums worked in this area of prevention.
One of USAID/Zambia’s prevention partners, CIDRZ, is working to implement perinatal
HIV-prevention services6 in three rural health districts in Zambia, with the goal of
substantially reducing the number of new pediatric HIV infections in these districts. By
September 30, 2004, CIDRZ achieved 11,161 out of their March 2005 planned output of
25,000 HIV-positive pregnant women in three districts who will receive PMTCT services,
including Nevirapine. It is likely that the planned output will be achieved.

We visited Kafue Estates Clinic, a general clinic that provided PMTCT services. The
clinic does VCT and also provides HIV-positive mothers with Nevirapine to prevent
infection to the newborn. The clinic opened on August 31, 2004 and by the end of
September had reported that they had counseled and tested 133 people, of which 23
tested HIV positive and 22 were treated with Nevirapine.

Abstinence/Be Faithful – USAID/Zambia is working with five partner consortiums in
promoting abstinence and being faithful. One partner consortium, the Policy Project,
reached 182,759 individuals through community outreach of HIV/AIDS-prevention
programs. In addition, 8,827 individuals were trained to provide HIV/AIDS-prevention
programs that promote abstinence and/or being faithful. A site visit to the Konkola
Copper Mines in Chingola showed a resource center with full-time staff available to
provide information to employees on HIV/AIDS prevention as well as other sexually
transmitted diseases. No planned outputs had been set in this area for the partner in this
consortium.

Injection Safety – Of the two partner consortiums working in the area of injection safety,
Chemonics International and JHPIEGO are aiming to prevent medical transmission of
HIV in Zambia by reducing unsafe and unnecessary injections. This project has initiated
several interventions to improve practices among health care providers and the
community members in the two pilot districts, Chipata and Ndola, in the form of training
and providing supplies such as needles and syringes. Chemonics/JHPIEGO reported
training 59 out of a planned output of 80 by the end of September 2004 and should
achieve their planned output by March 2005.

We visited the Injection Safety area at Ndola Central Hospital. The staff member
responsible for injection safety spoke very highly of and seemed extremely appreciative
of the training and support JHPIEGO had given the hospital. She specifically mentioned
that the project has brought a lot of changes in practices; previously management had
been a bit relaxed but has now embraced the program. The staff received training in
quality improvement, prevention, and injection safety. The hospital also received
supplies for injection safety from JHPIEGO, such as needles, syringes, disposal
containers, and alcohol wraps.

Other – Three partner consortiums are working in prevention using such means as
condom social marketing, behavior change, and community mobilization. AIDSMark is
working towards increasing condom social marketing efforts in provinces where
prevalence rates are higher than national averages. As of September 30, 2004, the
AIDSMark consortium reached 206,659 individuals through community outreach of
HIV/AIDS prevention programs not focused on abstinence and/or being faithful.

6
 Perinatal services are provided during the period around childbirth, especially five months
before and one month after birth.



                                                                                               10
Although this result fell short of planned output of 585,000 individuals, it is likely that the
output will be met by March 31, 2005. The Society for Family Health is the implementing
partner of the AIDSMark consortium, which is also working in the Corridors of Hope sites
with commercial sex workers. Other Corridors of Hope partners include Family Health
International and World Vision.

Care

USAID/Zambia and its partner consortiums have made progress towards meeting their
planned outputs in the area of care as of September 30, 2004. The following discussion
provides more details on the results achieved by selected partners implementing care
activities.

Counseling and Testing – Four USAID/Zambia partner consortiums are working in the
area of counseling and testing through strengthening and increasing community
mobilization and communication for VCT and increasing access to VCT services. The
New Start VCT Center in Kitwe is being implemented by AIDSMark. On average, 15 to
20 people are tested per day at the center with approximately 30 percent of the females
and 19 percent of the males testing positive. AIDSMark had a planned output of
counseling and testing 12,600 individuals; the actual number of individuals counseled
and tested was 9,200 as of September 30, 2004. It seems likely that the output will be
met by March 31, 2005.




Photo of employee at the New Start VCT Center in the laboratory. (Photo taken on January
31, 2005 in Kitwe, Zambia).



                                                                                            11
Palliative Care – With the help of four partner consortiums, USAID/Zambia reported
providing 31,016 individuals with HIV-related palliative care, progressing towards the
planned output of 70,800 persons. One partner consortium, Family Health International
had a planned output of providing 3,500 individuals with palliative care, and as of
September 2004, had provided 2,705 individuals with such care. Given six months
remain towards meeting the target, they seem on track. Another partner consortium
working in the palliative care area was the Policy Project, which had a planned output of
providing 8,600 individuals with general HIV-related palliative care. As of September
2004, they had provided 8,420 individuals with palliative care (including TB/HIV), and is
on track to meet the goal by March 31, 2005.

Catholic Relief Services Success is working to scale up its current home-based care and
support programs in certain provinces, increasing direct assistance to PLWHAs and their
families. We visited the Diocese of Solwezi, one of the Catholic Relief Services
partners, who reported having distributed 5,606 supplemental food packages by the end
of September 2004 through 13 of the 14 parishes it supports. We accompanied a
volunteer caregiver to the home of one of the parish’s home-based care program clients.
During this visit, the client confirmed that he received monthly food distributions through
the program. The client said that he only saw the caregiver once a month when he went
to the caregiver’s house to inquire about the date of the food distribution. Caregivers are
supposed to visit patients twice per week to assess their condition. When we raised
these issues, CRS management responded that the client also had dementia, which is
why he did not remember the weekly services that were provided. Because we were
unable to meet with other patients due to time constraints, we are not making any formal
recommendations. However, we strongly encourage the Mission to further review the
project and determine if it is functioning as intended.

Treatment

USAID/Zambia is working with three partner consortiums in providing antiretroviral
services. The following discussion provides more details on the results achieved by
selected partners implementing treatment activities.

Antiretroviral Services – Rational Pharmaceutical Management Plus is expanding its
technical assistance in building capacity of pharmacy and laboratory personnel and
services to support ART services in nine provincial hospitals. We visited the ART
Pharmacy at Ndola Central Hospital. The ART clinic at the hospital started in 2002 and
the pharmacy sees approximately 60 patients per day. The pharmacy received two
computers, an air conditioner, and thermometers from Rational Pharmaceutical
Management Plus. This partner consortium also developed a system database which
tracks patient information, performs drug management, and generates reports. At the
time of our visit, the pharmacy had 1,161 patients in the system. The pharmacist told us
that the assistance received from Rational Pharmaceutical Management Plus has
improved pharmacy operations and enabled the staff to follow new procedures, such as
tracking expiration dates and taking temperature-control measures.




                                                                                        12
Oversight Needs
To Be Improved

 Summary: USAID/Zambia was not providing sufficient oversight of some partner
 consortium activities. The Government Accountability Office’s Standards for Internal
 Control in the Federal Government discusses the importance of supervisory review.
 However, Mission staff indicated they had serious constraints on their time because
 of the voluminous reporting requirements of the Emergency Plan and the large
 number of partner consortiums involved in activities. As a result of the insufficient
 oversight, the Mission cannot be assured that partner consortium activities are being
 performed effectively or efficiently.

USAID/Zambia did not provide sufficient oversight of some partner consortium activities.
For example, several issues were noted related to the management of a project being
implemented by Savoir Faire, a subgrantee of International HIV/AIDS Alliance. Savoir
Faire received a subgrant of approximately $5,000 from Alliance for prevention activities
and at the time of the audit, records showed they had expended approximately 80
percent of the funds. During our site visit in January 2005, Savoir Faire management
stated that they had been able to fund activities up until the July/August 2004 time period
but that no activities had been conducted since. However, neither Alliance nor the
Mission was aware of this. In fact, Savoir Faire submitted a progress report for the
period ending December 2004 which showed activities had continued. We also found
irregularities with expenditures of Savoir Faire which we brought to the attention of the
Mission. Consequently, the Mission is requesting a financial audit of Alliance.

We also found that the USAID/Zambia staff were sometimes challenged in management
of program activities. For example, Mission staff did not maintain complete and readily
accessible documentation on program activities – documentation that would be key for
overseeing activities. At the beginning of the audit, we requested a list of all partners
involved in Emergency Plan activities that were funded by USAID/Zambia. Mission staff
provided a list of 26 partner consortiums, but during the course of the audit, we found
this list to be incomplete, as additional partner consortiums should have been included in
the listing. In addition, when we requested documentation for partner consortium
expected outputs, the Mission did not have this information readily available and had to
develop a spreadsheet that compiled expected outputs for all partners.

The Government Accountability Office’s Standards for Internal Control in the Federal
Government discusses the importance of supervisory review and oversight. Internal
control activities including reviews by management at the functional or activity level are
important in ensuring that management’s directives are carried out. Internal control
should generally be designed to assure that ongoing monitoring occurs in the course of
normal operations. Similarly, Automated Directives System section 303.3.4.c indicates
that the responsibilities of the cognizant technical officer include monitoring and
evaluating the recipient and the recipient’s performance.

USAID/Zambia staff acknowledged they had not always performed as much oversight as
they would have liked due to serious constraints on their time and resources. The staff
cited the voluminous reporting requirements under the Emergency Plan which
continually consumed a significant percent of their time. This was further exacerbated
by the large number of partners involved in Emergency Plan activities. At the time of our



                                                                                        13
audit, the Mission had worked with 33 partner consortiums at various times and locations
throughout the country. In order to reduce the management burden on staff,
USAID/Zambia uses its partner consortiums as umbrella grant-making organizations, but
this does not reduce the burden of monitoring the partners and sub-partners.

While there is some merit regarding the reasons for constraints on staff time and
resources, this does not relieve the Mission of its responsibility to sufficiently oversee
partner activities. Without providing adequate oversight of partner consortium activities,
USAID/Zambia cannot be fully assured that the partners are carrying out activities that
contribute to and ensure achievement of the Emergency Plan objectives. We are
making the following recommendation to assist the Mission in strengthening its oversight
of Emergency Plan activities:

   Recommendation No. 1: We recommend that USAID/Zambia engage the U.S.
   Government Emergency Plan Team to explore options or innovative approaches
   to reduce the strain on human resources to ensure adequate oversight of
   activities.


Reported Results Need to
Be Accurate and Supported
 Summary: During partner meetings and activity site visits, we found errors when
 comparing reported information to supporting documentation. The Government
 Accountability Office as well as USAID through TIPS Number 12 provides guidance
 on maintaining documentation. Because the reporting requirements were so
 numerous, the partners were not able to prioritize the necessity of documentation
 effectively. Consequently, the Mission was under- or over-reporting results to the
 Office of the U.S. Global AIDS Coordinator.


While visiting 11 partner offices and 13 project sites, we compared information contained
in the activity reports with supporting documentation. Errors and discrepancies were
found at seven of the partner offices and eight of the project sites. Although several of
the differences were not material, the examples below show errors found at two partner
offices and during one site visit that were material.

International HIV/AIDS Alliance – In their report for the year ending September 2004,
International HIV/AIDS Alliance reported that it reached 69,244 people through
mobilization efforts and that 28,165 people received VCT services. However, it could
not provide documentation to support those figures. Subsequently, Alliance revised its
report to reflect the figures supported by its records of 41,946 people reached through
mobilization efforts (a 39 percent difference) and 21,801 people who received VCT
service (a 24 percent difference). However, this revised report was also inaccurate, as it
included information through December 2004.

Another issue was that subpartners reported to the International HIV/AIDS Alliance on a
semi-annual basis, providing results for the January to June and July to December time
periods. Hence, when the Mission receives September or March quarterly reports from
Alliance, all of the subpartner activities for the period are not included. For example, the
Alliance annual report for the year ending September 30, 2004 does not reflect



                                                                                         14
subpartner activities for the months July through September, as those activities will not
be reported to the Alliance by the subpartners until December. However, one
memorandum of understanding with a non-governmental organization stated that the
organization was required to report on a quarterly basis—contradicting what Alliance
management had stated.

Corridors of Hope Consortium Office, Lusaka – The Corridors of Hope consortium
consists of the managing partner, Family Health International, and subpartners, one of
which is the Society for Family Health. The consortium’s report for the period ending
September 30, 2004 indicated that 533,551 condoms were distributed; however, no
documentation was provided to verify the accuracy of the figure. Similarly, the report
also indicated that 11,221 women were provided with syndromic management of
sexually transmitted infections. When supporting documentation was requested,
management stated that the number should have been 8,874; however, they could not
provide documentation for the revised figure either.

Corridors of Hope, Ndola - During a site visit to Corridors of Hope in Ndola, we noted
that the figures related to the number of condoms distributed were inaccurate as some
condoms were counted twice. Condoms are sold either to wholesalers or to the actual
retail outlets. When condoms are sold directly to wholesalers, they are counted as being
distributed. Corridors of Hope also assists the wholesalers in distributing to the retailers,
which is referred to as uplifting. When wholesaler condoms are sold to retailers, the
money is given to the wholesaler, and Corridors of Hope records another sale. Thus,
one condom is being counted as sold twice, once to the wholesaler and once to the
retailer. Discussion with management and a review of documentation found that 18,872
condoms were uplifted out of the 150,699 condoms reported as sold during the period of
May 2004 to December 2004. In addition, there was no documentation of female
condoms sold.

Problems of reporting and supporting documentation seemed to be a systemic problem
we noted during our visits. Some of the partners or projects had minor discrepancies,
but differences did exist in most of the partner projects visited.

Information reported needs to be accurate and have supporting documentation. USAID
TIPS7 Number 12 emphasizes the importance of documentation, stating that proper
documentation is a process that facilitates the maintenance of quality performance
indicators and data. Such documentation should provide an opportunity for independent
checks concerning the quality of the performance measurement system. In addition, the
Government Accountability Office’s Standards for Internal Control in the Federal
Government state that all transactions and significant events need to be clearly
documented and that the documentation should be readily available for examination.

Because of the numerous reporting requirements, the partners were not able to
effectively prioritize the documentation. As stated earlier, the reporting requirements
under the Emergency Plan are quite voluminous, straining Mission and consortium
partner staff. The Mission staff was not able to properly monitor the partner consortium
activities, which is addressed on page 13. In addition, not all partner consortiums were

7
 USAID Center for Development Information and Evaluation’s “TIPS” series provides advice and
suggestions to USAID managers on how to plan and conduct monitoring and evaluation activities
effectively.



                                                                                           15
aware of the type of supporting documentation needed. For example, at one partner
consortium, one employee in charge of reporting the number of people trained did not
keep original attendance records.

The partner consortiums were either under- or over-reporting data to USAID/Zambia;
this data was then incorporated into reports to the Office of the U.S. Global AIDS
Coordinator, USAID headquarters, and Congress. This incorrect information could be
used to make programmatic decisions. In order to address this issue, we are making the
following recommendation:

    Recommendation No. 2: We recommend that USAID/Zambia schedule training
    for consortium partners in accurately reporting results and maintaining adequate
    supporting documentation.


Are USAID/Zambia’s HIV/AIDS activities contributing to the
overall U.S. Government’s Emergency Plan targets?

USAID/Zambia’s HIV/AIDS activities are making a major contribution to the overall
USG’s Emergency Plan targets for prevention and care, but is contributing towards the
treatment targets at a lesser extent. USAID/Zambia’s important role in meeting
Emergency Plan targets is also reflected in the fact that it received $43.8 million8 out of
the $63.4 million9 budgeted for the overall USG effort in Zambia. Table 4 below shows
USG targets, USG progress in achieving those targets, and results attributable to
USAID/Zambia for FY 2004. Actual numbers are as of September 30, 2004, but the
USG has until March 31, 2005 to meet its targets.




8
 Of the $43.8 million, $2.6 million was allocated to management and staffing.
9
 The FY 2004 Country Operational Plan shows the USG in Zambia receiving $65.7 million;
however, $2.3 million was deferred to FY 2005.



                                                                                         16
              Table 4: USG Targets and Breakout of Progress for FY 2004

     Target Focus                   USG         Reported             Reported                Results
                                  Target       Total USG              Results        Attributable to
                                                 Results       Attributable to       USAID/Zambia
                                                               USAID/Zambia                (percent)

      Prevention
 Total number of                 To be         Cannot be            Cannot be                      N/A
 infections averted            modeleda       determined       determined until
                                                    until             modeled
                                                modeled
 Number of infections               8,032         12,822                  12,302                     96
 averted: PMTCT
 (Number of pregnant
 women provided with
 a complete course of
 antiretroviral
 prophylaxis in a
 PMTCT setting)
 Number of infections            To be         Cannot be            Cannot be                      N/A
 averted: non-PMTCT            modeleda       determined       determined until
                                                    until             modeled
                                                modeled
           Care
 Total number of                 301,600          300,329               288,876                      96
 individuals receiving
 care and support
 Number of OVCs                  226,000          257,780               257,780                    100
 receiving care and
 support (Number of
 OVCs served by
 OVC programs)
 Number receiving                 75,600            42,549                31,016                     73
 palliative care (Total
 number of individuals
 provided with HIV-
 related palliative care
 (including TB/HIV))
       Treatment
 Number receiving                 16,000           13,555b                   743                      6
 ART
Results shown were not audited.
Notes:
a. The Office of the U.S. Global AIDS Coordinator has not yet determined how to account for the number of
infections averted. Therefore, no target has been established and results cannot yet be determined.
b. The number reported as the number of people receiving ART is based on direct and indirect support of
the USG. Direct support is 3,365; indirect support is 10,190.




                                                                                                      17
The following discussion provides more details of the contributions made by
USAID/Zambia to the USG targets.

Prevention

We could not determine USAID/Zambia’s contribution to the U.S. Government’s target of
preventing infections averted or the number of infections without PMTCT interventions
because FY 2004 targets had not yet been established. However, USAID/Zambia is
making a major contribution to the overall U.S. Government’s Emergency Plan target for
the number of infections averted with PMTCT interventions. The overall USG efforts
resulted in averting 12,822 infections, which greatly exceeded the target of 8,032.
USAID/Zambia contributed to the achievement of the target by providing 12,302
pregnant women with a complete course of antiretroviral prophylaxis in a PMTCT
setting, representing 96 percent of the overall USG results.

Care

USAID/Zambia’s HIV/AIDS activities are making a major contribution to the overall U.S.
Government’s Emergency Plan targets for care. The USG met the targeted number of
OVCs receiving care and support, with USAID/Zambia providing 100 percent of the
care and support. The USG did not, however, meet the target for the number of people
receiving palliative care. USAID, the Centers for Disease Control and Prevention, and
Peace Corps were all involved in the achievement of 42,549 people receiving care, with
participation equaling approximately 73 percent, 27 percent and less than 1 percent,
respectively. The total number receiving care and support is a summation of the
number of OVCs receiving care and support and the number receiving palliative care.

Treatment

USAID/Zambia’s HIV/AIDS activities are making a minor contribution to the overall U.S.
Government’s Emergency Plan targets for treatment. The USG did not meet its target
for the number of people receiving ART. The target for 2004 was 16,000, but only
13,555 people were receiving ART. Of this number, 3,365 people received direct USG
support, and 10,190 received indirect USG support. Of the 3,365, the Centers for
Disease Control and Prevention provided 2,622 people with support (78 percent) while
USAID/Zambia supported the efforts by providing for 743 people (22 percent).

Because the Zambian government is not providing the necessary resources for
treatment of individuals living with HIV/AIDS, the USG is increasing the procurement of
ARVs to be distributed in the country. Even with the ARVs that the USG is obtaining,
there will still be a gap between the supply and demand. Unless the prices of the drugs
fall dramatically or generics are allowed to be used, it does not seem likely that the USG
will meet the 2008 target of 120,000 people receiving ART.

The sustainability of the Emergency Plan program then becomes questionable. During a
meeting with the Zambian Ministry of Health officials, this was raised as a concern. The
Ministry officials stated that the government would not be able to carry on the treatment
program without external funding. The National AIDS Council officials stated that the
government is developing an investment plan to assist in the future purchasing of drugs.




                                                                                       18
Partners Should Develop Strategies
For Sustainable Activities
 Summary: Sustainability is a fundamental concept in development. Although
 USAID/Zambia has placed some emphasis on sustainability in Emergency Plan
 activities, it was not an O/GAC requirement, and not all activities have sustainability
 and capacity building intentionally included. As a result, the benefits of those
 activities may not extend beyond the completion of the activities.

The importance of sustainability is recognized in the O/GAC’s five-year strategy for the
Emergency Plan. One of its strategic principles aims to develop sustainable HIV/AIDS
health care networks. By definition, sustainable development activities continue
providing benefits beyond the timeframe receiving donor funding. On the other hand, the
benefits of non-sustainable development activities do not necessarily continue beyond
the five years covered by the plan.

O/GAC did not require partners to incorporate sustainability into their projects for FY
2004. This, however, is not to say that USAID/Zambia’s programs do not incorporate
sustainability and capacity building in some cases. The importance of sustainability was
recognized in the development of criteria for selection of organizations to implement
Emergency Plan programs. Organizations seeking USAID funding for various types of
the Emergency Plan activities were required to address capacity building in their
applications. For example, the Request of Applications for programs focusing on
palliative care of persons with HIV/AIDS specified that these programs “will implement
measures to build up numbers and competencies for decision making among Zambian
staff at all levels … so that Zambians will increasingly be in a position to take senior
executive management and technical roles, authorities and responsibilities for HIV/AIDS
prevention and mitigation.”       Similar language was included in the Request for
Applications for programs in multi-sectoral support, social marketing, strengthening the
health systems and improving HIV/AIDS service delivery.

In another example, one project is providing technical assistance to two large companies
in Zambia that will enable the companies to develop policies and workplace programs
focusing on the prevention, care, support and treatment of HIV/AIDS. With the activities
intended to reach over 100,000 employees and their family members, the program also
presents an opportunity to reach beyond the companies into the communities to
strengthen existing services.

USAID/Zambia, however, acknowledged that sustainability has not been fully
incorporated into some Emergency Plan activities. For example, the number and costs
of tests kits and ARV drugs necessary to meet the Emergency Plan targets and the
needs of the country are enormous and external support will be required beyond the
year 2009. Also, with the continual change in global protocols for prevention, care and
treatment, skills training at all levels will need to be updated beyond the year 2009.
Overall, building up the capacity of civil society to address HIV/AIDS prevention, care
and treatment is a long-term investment and will not be completed by 2009.

USAID is currently considering a draft policy addressing sustainability that would be
included in its Emergency Plan contracts, grants and cooperative agreements. This
policy—which requires the building of institutional capacity and the development of exit



                                                                                       19
strategies—has already been approved by O/GAC and is awaiting USAID approval
before being issued as a USAID Acquisition and Assistance Policy Directive. Pending
the issuance of USAID’s final policy concerning sustainability in Emergency Plan
activities, we are making the following recommendation.

   Recommendation No. 3: We recommend that USAID/Zambia require that its
   partners develop strategies for the sustainability of their Emergency Plan
   activities, including the incorporation of institutional capacity building activities
   and the development of exit plans.




                                                                                           20
EVALUATION OF
MANAGEMENT COMMENTS
In its response to the draft report, USAID/Zambia agreed with the three
recommendations in the draft audit report. Based on appropriate action taken by the
Mission, management decisions have been made on all three recommendations and
Recommendations No. 1 and No. 2 are considered closed upon the issuance of this
report. However, Recommendation No. 3 will remain open pending final action by the
Mission. USAID/Zambia’s management comments included supporting attachments
which are not included in this audit report.

Recommendation No. 1 recommends that USAID/Zambia explore options or innovative
approaches to reduce the strain on human resources to ensure adequate oversight of
activities. The Mission indicated that several additional staff will join the Population,
Health and Nutrition Strategic Objective Team which will relieve some pressure on
existing staff and allow more attention to oversight of program activities. Specifically,
one vacancy that has existed for over one year will be filled in October, and two
additional staff will be available to reduce the workload of existing staff. Additionally, the
Mission will explore whether or not another person can be hired. We believe the Mission
has acted appropriately on this recommendation and it is considered closed upon the
issuance of this report.

Recommendation No. 2 recommends that USAID/Zambia schedule training for
consortium partners in accurately reporting results and maintaining adequate supporting
documentation. To address this, the Mission has taken several actions. The Mission
developed and began implementing (as of June 8, 2005) an automated partner reporting
system to improve the accuracy of reported results. The system provides a set of data
collection templates, a data consolidation system and a web-based central system that
will generate a master data base. This system will not only analyze the activity results,
but also check the data for accuracy, completeness and duplication. Additionally, from
June 6-9, 2005, the Mission hosted training in U.S. Government Auditing Standards and
Guidelines for Financial Audits. The training addressed, among other issues, the
requirements to maintain adequate and accessible documentation and was attended by
representatives of USAID/Zambia’s partner consortiums. Furthermore, the Mission has
developed a workplan and schedule for conducting financial and technical reviews of
partner consortiums to ensure that recipients are reporting accurately and are
maintaining adequate and accessible documentation. We believe the Mission has taken
sufficient action on this recommendation and it is considered closed upon issuance of
this report.

Recommendation No. 3 recommends that USAID/Zambia require that its partners
develop strategies for the sustainability of their Emergency Plan activities, including the
incorporation of institutional capacity building activities and the development of exit
plans. The Mission indicated that pending the issuance of a USAID Acquisition and
Assistance Policy Directive, it would continue to incorporate the requirement for
sustainability and capacity building as criteria for selection of organizations to implement
Emergency Plan activities. To formally support this, USAID/Zambia plans to create a



                                                                                           21
Mission Order requiring organizations seeking USAID funding for Emergency Plan
activities to address capacity building and sustainability in their applications. The
Mission Order will also require successful recipients to address sustainability and an exit
strategy as part of their annual workplans. We believe this planned action is appropriate
and have reached a management decision on this recommendation. However, the
recommendation will remain open pending the issuance of the final Mission Order,
scheduled for November 2005.




                                                                                        22
                                                                                Appendix I



SCOPE AND METHODOLOGY
Scope
The Regional Inspector General/Dakar conducted this audit in accordance with generally
accepted government auditing standards. Fieldwork for this audit was performed at the
USAID Mission in Zambia between January 24, 2005 and February 9, 2005. Site visits
and partner meetings occurred around Lusaka and in the Copperbelt region of the
country.

This audit was one of a series of worldwide audits being led out of the Performance Audit
Division in Washington. This audit was designed to answer the following three questions:
(1) How has USAID/Zambia participated in the President’s Emergency Plan for AIDS
Relief activities? (2) Did USAID/Zambia's activities progress as expected towards
planned outputs in their agreements and contracts? (3) Are USAID/Zambia's HIV/AIDS
activities contributing to the overall U.S. Government's Emergency Plan targets?

The scope also included reviewing USAID/Zambia’s role in the President’s Emergency
Plan for AIDS Relief and its contribution to the U.S. Government’s total effort to meet
targets.

In conducting our audit, we assessed the effectiveness of USAID/Zambia’s internal control
with respect to consolidating reporting data for the U.S. Government annual progress report
of its activities through September 30, 2004. We identified internal control such as:

•   USAID/Zambia’s process for monitoring its partners’ progress and reporting.
•   USAID/Zambia’s partners’ process for compiling regional data for its country-level
    reports.

As stated previously, some of the partner consortiums were just beginning the
implementation phase of their projects as of September 2004. As such, not all of the
funding received by USAID partner consortiums had results attributable to their programs.
Of the $41.2 million in funding of projects that USAID/Zambia received, $17.5 million was
used in implementation of programs that had results reported as of September 2004. Of
this amount, we audited consortiums receiving $14.8 million representing 85 percent of the
funding with results.

For projects not selected for review, we relied on the Fiscal Year (FY) 2004 Country
Operational Plan for input on the programs.

Methodology
To answer audit objective one, we reviewed the Country Operational Plan for FY 2004
for Zambia, interviewed cognizant technical officers and partners, and reviewed other
pertinent documentation. We also interviewed Government of the Republic of Zambia
officials from the Ministry of Health, the National AIDS Council, and the Ministry of
Youth, Sport, and Child Development. To answer audit objective two, we interviewed
Mission officials, in-country partners, and cognizant technical officers/activity managers



                                                                                        23
                                                                                 Appendix I


as well as reviewed quarterly progress reports from partners to determine the progress
towards planned outputs. To answer audit objective three, we reviewed the U.S.
Government annual report and reported targets. We compared this to individual partner
reports to determine each partner’s role in achievement of these targets. In addition, we
interviewed other U.S. Government representatives from the Centers for Disease
Control and Prevention, Peace Corps, Department of Defense, and State Department.
We also interviewed officials of the Government of the Republic of Zambia, as stated
above.

Additionally, we conducted site visits to partners and beneficiaries involved in HIV/AIDS
prevention, care, and treatment. Of the Mission’s 33 consortiums, we selected 11 for
further review. Initially, we anticipated performing one site visit per partner per activity,
but due to issues found at the International HIV/AIDS Alliance site, we selected an
additional two other Alliance sites.

A materiality threshold was not established for this audit since it was not considered to
be applicable given the qualitative nature of the audit objectives, which focused on
USAID’s participation, progression, and contribution towards the overall U.S.
Government’s Emergency Plan targets.




                                                                                          24
                                                                                              Appendix II




Date:              July 11, 2005

To:                Lee Jewell III, RIG/Dakar

From:              William F. Penoyar, Acting Mission Director, USAID/Zambia/s/

Subject:           Audit of USAID/Zambia’s Implementation of the
                   President’s Emergency Plan for HIV/AIDS Relief

Reference:         Audit Report No. 7-611-05-XXX-P

In response to the audit recommendations in subject audit report, the
Mission has reviewed the draft audit report and is in agreement with the
three recommendations and the following are our management decisions
and actions taken/planned:

Recommendation No. 1: We recommend that USAID/Zambia engage the U.S Government
Emergency Plan Team to explore options or innovative approaches to reduce the strain on human
resources to ensure adequate oversight of activities.

Actions taken:

The Mission has several additional staff under the Population, Health and Nutrition Strategic Objective
Team (SO7) coming on board in the next several months, which will relieve some of the pressure on
existing staff and allow more time and attention to activity oversight. The position of HIV/AIDS Program
Specialist in the SO7 office, which has been vacant for over a year, will be filled in October. This person
will work 100% in support of the Emergency Plan and their scope of work includes monitoring and
evaluation duties for SO7 activities. SO7 will also receive a USDH IDI in early August and is planning to
hire an additional senior professional FSN by the end of the calendar year. While these additional staff may
or may not be assigned specific Emergency Plan-related monitoring duties, they will definitely take on
activities that will reduce the workload of existing staff who do have such duties, again freeing them up to
spend more time in this area.

Planned Actions:

1. The Zambia Mission Emergency Plan focal point person will work with the U.S.
   Government Emergency Plan Team to explore ways to reduce the strain on human




                                                                                                         25
                                                                                             Appendix II


  resources and stream lining the voluminous reporting requirements in order that the
  time that will be freed up from working on the reporting will be used to undertake
  more field visits to enhance oversight of the activities.

2. In addition to the planned SO7 staffing increases described above and subject to
   budget limitations, the USAID/Mission will also consider hiring an additional full-time
   person in the HIV/AIDS Multi-Sectoral Strategic Objective Team (SO9) who will
   focus exclusively on monitoring and evaluation of all USAID/Zambia Emergency Plan
   activities.

Target dates:

1. USAID/Zambia will make a decision on whether or not to hire an additional person in
   SO9 by August 31, 2005. The SO9 Team Leader and Mission Director, both of whom
   are out until early August 2005, need to be consulted.

The above constitutes the management decisions and measures taken to ensure that Recommendation No. 1
is addressed.

Recommendation No. 2: We recommend that USAID/Zambia schedule training for consortium
Partners in accurately reporting results and maintaining adequate supporting documentation.

Actions taken:

1. The Zambia Mission Emergency Team developed and on June 8, 2005, started
   implementing an automated Zambia Partner Reporting System, as per attached, with
   standard tools to be used by both, the Mission and recipients to improve the accuracy
   of the results reported.

2. USAID/Zambia hosted training in U.S. Government Auditing Standards
   and Guidelines for Financial Audits contracted by Foreign Recipients during the
   period June 6-9, 2005, which addressed, amongst other issues, the requirement for
   recipients to maintain adequate and accessible supporting documentation. Attached is
   the Scope of Work that was used for the training and the list of participants who
   attended the training.

3. In conjunction with 1. and 2. above, the Mission Controller’s Office and the Strategic
   Objective Teams have developed a Financial Review work plan (as per attached) and a
   technical/site review work plan (as per attached) which will be used to ensure that
   recipients are reporting accurately and are maintaining adequate and accessible
   supporting documentation.

The above constitutes the management decisions and measures taken to ensure that Recommendation No. 2
is addressed.




                                                                                                     26
                                                                                                  Appendix II



Recommendation No. 3: We recommend that USAID/Zambia require that its partners develop
strategies for the sustainability of their Emergency Plan activities, including the incorporation of
institutional capacity building activities and the development of exit plans.

Actions taken:

Pending the issuance of a USAID Acquisition and Assistance Policy directive, that would
address sustainability in the awards, and that would be included in new and existing USAID Emergency
Plan awards, the Zambia Mission will continue to incorporate a requirement for sustainability and capacity
building as one of the criteria in the selection of organizations to implement Emergency Plan programs and
will require that successful recipients address sustainability and an exit strategy as part of their annual work
plans.

Planned actions:

The USAID/Zambia will draft a Mission Order requiring organizations seeking USAID funding for
Emergency Plan activities to address capacity building and sustainability in their applications and will
require that successful recipients address sustainability and an exit strategy as part of their annual work
plans.

Target date:

The Mission Order will be finalized by November 30, 2005

The above constitutes the management decisions and measures taken to ensure that Recommendation No. 3
is addressed.

Therefore, in accordance with ADS 595.3 this memo constitutes the management decisions and measures
planned/taken to address the Recommendation Numbers 1, 2 and 3 in Audit Report No. 7-611-05-XXX-P.




Attachment: a/s




                                                                                                              27
                                                                                Appendix III


            Complete Listing of Consortiums Funded by USAID/Zambia

                                                          Results
                                                         achieved                Selected
                                          Area of         by Sept                   for
          Partner Consortium           Intervention        2004       Funding    Review
     Academy for Educational                                        See Note
1    Development Linkages            Prevention            Yes      1               No
     AIDSMark/Society for Family
2    Health                          Prevention, Care      Yes      3,900,000       Yes
     Catholic Relief Services -
     Orphans and Vulnerable                                         See Note
3    Children                        Care                  Yes      1               No
     Catholic Relief Services
4    Success                         Care                  Yes      3,521,902       Yes
     Center for Infectious Disease
5    Research in Zambia (CIDRZ)      Prevention            Yes      1,300,000       Yes
                                                                    See Note
6    Chemonics International         Prevention            Yes      1               No
     Cooperative League of the
7    USA                             Prevention            Yes      50,000          No
     Creative Associates
8    International, Inc.             Prevention            No       950,000         No
     Education Quality
9    Improvement Program             Treatment             No       500,000         No
     Family Health International -
10   Corridors of Hope               Prevention, Care      Yes      2,333,039       Yes
     Family Health International -
11   Family Support Unit             Care                  Yes      320,000         Yes
     Family Health
12   International/Impact            Other                 Yes      200,000         No
     Forum for African Women
13   Educationalist in Zambia        Care                  No       300,000         No
     Health Communication
14   Partnership                     Prevention            No       2,250,000       Yes
     Health Services and Systems
15   Program                         Treatment             No       3,700,000       No
     Horizons Antiretroviral
16   Adherence                       Treatment             No          60,000       No
     International Development
17   Enterprises                     Prevention            Yes      250,000         No
     International Executive                                        See Note
18   Service Corps                   Other                 Yes      1               No
     International HIV/AIDS
19   Alliance                        Prevention, Care      Yes      1,000,000       Yes
                                                                    See Note
20   JHPIEGO                         Prevention            Yes      1               Yes
                                     Prevention, Care,
21   John Snow Inc. SHARE            Treatment, Other      No       3,439,000       No

22   Measure                         Other                 Yes      920,000         No

                                                                                          28
                                                                                    Appendix III



                                                             Results
                                                            achieved                    Selected
                                             Area of         by Sept                       for
          Partner Consortium              Intervention        2004       Funding        Review

 23   Michigan State University        Prevention              Yes      100,000           No

 24   Pact, Inc.                       Treatment               No       400,000           No
      Partnership for Health Reform
 25   Plus                             Treatment               Yes      720,000           Yes
                                       Prevention, Care,
 26   Policy Project                   Treatment, Other        Yes      1,320,000         Yes
      Policy Project/Zambia
      Interfaith Networking Group
 27   on HIV/AIDS                      Care                    Yes      520,000           No

      Rational Pharmaceutical
 28   Management Plus                  Treatment               Yes      850,000           Yes
      Reaching HIV/AIDS Affected
      People with Integrated
 29   Development and Support          Prevention, Care        No       3,561,500         No
      Scope - Orphans and
 30   Vulnerable Children              Care                    Yes      525,000           No

 31  The Synergy Project               Other                   No       300,000           No
     Zambia Agribusiness
 32 Technical Assistance Centre        Prevention              Yes      100,000           No
     Zambia Prevention, Care and       Prevention, Care,
 33 Treatment Project                  Treatment               No       8,300,000         No
Note 1: Funding received from prior year monies or from a centrally-funded allotment.




                                                                                                29
U.S. Agency for International Development
       Office of Inspector General
       1300 Pennsylvania Ave, NW
         Washington, DC 20523
           Tel: (202) 712-1150
           Fax: (202) 216-3047
           www.usaid.gov/oig
